No. 19-446
IN THE SUPREME COURT OF THE UNITED STATES
_________________
VF JEANSWEAR LP, PETITIONER
v.
EQUAL EMPLOYMENT OPPORTUNITY COMMISSION
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENT IN OPPOSITION, via email and first-class mail,
postage prepaid, this 3rd day of January, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 6,452
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
January 3, 2020.

January 3, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0446
VF JEANSWEAR LP
EEOC
JAMES M. POWELL
WOMBLE BOND DICKINSON (US) LLP
300 NORTH GREENE STREET
SUITE 1900
GREENSBORO, NC 27401
336-574-8081
JIMMY.POWELL@WBD-US.COM
JOSHUA WOODARD
SNELL & WILMER LLP
400 EAST VAN BUREN
PHOENIX, AZ 85004
602-382-6000
JWOODARD@SWLAW.COM

VIA EMAIL

